                    Audit of Adequacy and Compliance
                   of Disclosure Statement Revision 13,
                         Effective January 1, 2003

                                October 2003

                     Reference Number: 2004-1C-007




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           October 27, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of Adequacy and Compliance of Disclosure Statement,
                              Revision 13, Effective January 1, 2003 (Audit #20041C0202)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s revised
       disclosure statement, dated June 24, 2003, and additional changes submitted on
       September 12, 2003. The purpose of the examination was to determine whether the
       contractor’s revised disclosure statement, Revision 13, dated September 12, 2003,
       adequately describes the cost accounting practices that the contractor proposes to use
       in performing Federal Government contracts and whether the revised practices comply
       with applicable Cost Accounting Standards (CAS) and Federal Acquisition Regulation
       (FAR) Part 31. The DCAA also evaluated the contractor’s consistency of revised cost
       accounting practices with actual practices.
       The DCAA disclosed that the disclosure statement revision adequately describes the
       contractor’s revised cost accounting practices. Additionally, the practices comply with
       applicable CAS and FAR Part 31 and are consistent with the contractor’s actual
       practices.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or you may call
       John R. Wright, Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
